CASE NO. 20-816

IN THE SUPREME COURT OF THE UNITED STATES

IN Re:
CORECO JA’QAN PEARSON, VIKKI TOWNSEND CONSIGLIO, GLORIA
KAY GODWIN, JAMES KENNETH CARROLL, JASON M SHEPHERD on
behalf of the COBB COUNTY REPUBLICAN PARTY, and BRIAN JAY VAN
GUNDY
Petitioners,
STATE OF GEORGIA, BRIAN KEMP, in his official capacity as Governor of
Georgia, BRAD RAFFENSPERGER, in his official capacity as Secretary of State
and Chair of the Georgia State Election Board, DAVID J. WORLEY, in his
official capacity as a member of the Georgia State Election Board, REBECCA N.
SULLIVAN, in her official capacity as a member of the Georgia State Election
Board, MATTHEW MASHBURN, in his official capacity as a member of the
Georgia State Election Board, and ANH LE, in her official capacity as a member
of the Georgia State Election Board,
Respondents
PROOF OF SERVICE
Harry W. MacDougald affirms, deposes and states that on the
15th day of December 2020, he did cause to be served the following:
1.
2.
2.

Notice of Supplemental Authority
Certificate of Compliance
Proof of Service

1

UPON:
Charlene S. McGowan
Georgia Department of Law
40 Capitol Square SW
Atlanta, Georgia 30334
cmgowan@law.ga.gov

Joyce Gist Lewis
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
jlewis@khlawfirm.com

Amanda J. Beane
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
ABeane@perkinscoie.com

Kevin J. Hamilton
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101-3099
KHamilton@perkinscoie.com

Amanda R. Callais
Perkins Coie LLP
700 13th Street, NW, Suite 800
Washington D.C. 20005-3960
ACallais@perkinscoie.com

L. Lin Wood
L. Lin Wood, P.C.
P.O. Box 52584
Atlanta, Georgia 30355-0584
lwood@linwoodlaw.com

Bryan P. Tyson
Taylor English Duma LLP
1600 Parkwood Circle, Suite 200
Atlanta, Georgia 30339
btyson@taylorenglish.com

Marc E. Elias
Perkins Coie LLP
700 13th Street, NW, Suite 800
Washington D.C. 20005-3960
melias@perkinscoie.com

Carey Miller
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
cmiller@robbinsfirm.com

Melanie Johnson
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
mjohnson@robbinsfirm.com

Halsey G. Knapp, Jr.
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
hknapp@khlawfirm.com

Matthew J. Mertens
Perkins Coie LLP
1120 NW Couch Street, 10th Floor
Portland, Oregon 97209-4128
MMertens@perkinscoie.com

Howard Kleinhendler
369 Lexington Avenue 12 FL
New York, NY 10017

Russell D. Willard
Georgia Office of the Attorney General
40 Capitol Square, SW
2

howard@kleinhendler.com

Atlanta, GA 30334
rwillard@law.ga.gov

Josh Belinfante
The Robbins Firm
500 14th Street, NW
Atlanta, Georgia 30318
jbelinfante@robbinsfirm.com

Adam M. Sparks
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
sparks@khlawfirm.com

Susan P. Coppedge
Krevolin & Horst, LLC
One Atlantic Center
1201 West Peachtree Street, NW
Suite 3250
Atlanta, Georgia 30309
coppedge@khlawfirm.com

Sidney Powell
Sidney Powell P.C.
2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219-4480
sidney@federalappeals.com

By email and by placing said copies in a properly addressed envelope with sufficient
postage fully prepaid, and placing in a U.S. Mail Receptacle.
FURTHER AFFIANT SAYETH NOT.
/s/ Harry W. MacDougald
HARRY W. MACDOUGALD

3

